No. 20-843
IN THE

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,
Petitioners,
v.
KEVIN P. BRUEN, in His Official Capacity as
Superintendent of New York State Police, and
RICHARD J. MCNALLY, JR., in His Official Capacity as
Justice of the New York Supreme Court, Third
Judicial District, and Licensing Officer for
Rensselaer County,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that this amicus brief contains 7695 words, excluding
the parts of the brief that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
September 20, 2021.

/s/ Adam S. Gershenson
ADAM S. GERSHENSON
COOLEY LLP
500 Boylston Street
Boston, MA 02116
agershenson@cooley.com
(617) 937-2379

Counsel of Record for
Amicus Curiae League of
Women Voters

